TN

C@QCKLE

Le al B rie fs E-Mail Address:
8 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 Nos. 19-431 & 19-454 :
LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,

Petitioner,
Vv.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

 

DONALD J. TRUMP, PRESIDENT OF
THE UNITED STATES, ET AL.,
Petitioners,
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of April, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE CENTER FOR HEALTH LAW AND
POLICY INNOVATION OF HARVARD LAW SCHOOL, ET AL. IN SUPPORT OF RESPONDENTS in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
KEVIN COSTELLO
Counsel of Record
CENTER FOR HEALTH LAW AND
POLICY INNOVATION OF HARVARD LAW
SCHOOL
1585 Massachusetts Avenue
Cambridge, MA 02138
(617) 496-0901
kcostello@law.harvard.edu

Subscribed and sworn to before me this 7th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ere Kone thao Ondeaw tt: Chala

Notary Public Affiant S9OTS

 

 

My Comm. Exp. Saptamber'6, 2023
SERVICE LIST

Mark Leonard Rienzi

The Becket Fund for Religious Liberty

1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

202-349-7208

mrienzi@becketlaw.org

Counsel for Petitioner: The Little Sisters of the Poor Saints Peter and Paul Home
(No. 19-431)

Michael J. Fischer

Pennsylvania Office of Attorney General

1600 Arch St.

Suite 300

Philadelphia, PA 19103

215-560-2171

mfischer@attorneygeneral.gov

Counsel for Respondents: Commonwealth of Pennsylvania et al.
(Nos. 19-431 and 19-454)

Noel J. Francisco Solicitor General
United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

202-514-2217

SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner: Donald J. Trump, President of the United States, et al.
(No. 19-454; also Federal Respondent in No. 19-431)
